Audit of ACF Grant Award Number 09CX2013 Center for Positive Prevention Alternatives, Inc., Stockton, California, (A-09-01-00105)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of ACF Grant Award Number 09CX2013 Center for Positive Prevention
Alternatives, Inc. Stockton, California," (A-09-01-00105)
December 20, 2001
Complete
Text of Report is available in PDF format (1.48 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of grant number 09CX2013 awarded
to the Center for Positive Prevention Alternatives, Inc. (CPPA) by the U.S.
Department of Health and Human Services, Administration for Children and Families
(ACF).  The CPPA was awarded a Transitional Living Program grant in the
amount of $200,000 each year, or $600,000 total, for the 3-year period November
1, 1996 through October 31, 1999, to provide shelter and non-shelter services
to runaway and homeless youth.  The objectives of our audit were to assess
CPPAs (i) performance in achieving the service and reporting objectives as
defined in the grant application approved by ACF, and (ii) compliance with
the terms and conditions of the grant applicable to those objectives.  Our
audit found problems in the documentation of services, client data in the national
Runaway and Homeless Youth Management Information System (RHYMIS) database,
and completeness of information in the quarterly performance reports, as well
as, submission of the final report to ACF. We
made a series of recommendations intended to help strengthen CPPAs management
controls.